Office of Inspector General
     Audit Report


USMMA SECURITY CONTROLS WERE NOT
  SUFFICIENT TO PROTECT SENSITIVE
 DATA FROM UNAUTHORIZED ACCESS

         Maritime Administration

       Report Number: FI-2012-138
       Date Issued: May 30, 2012
                      Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: USMMA Security Controls Were Not                                           Date:    May 30, 2012
           Sufficient to Protect Sensitive Data from
           Unauthorized Access
           Maritime Administration
           Report No. FI-2012-138

  From:    Louis C. King                                                                   Reply to
                                                                                           Attn. of:   JA–20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Maritime Administrator

           The United States Merchant Marine Academy (USMMA), located in Kings Point,
           New York, is the Federal Service Academy—operated by the Department of
           Transportation’s (DOT) Maritime Administration—responsible for training
           shipboard officers for the U.S. Merchant Marine. It is a fully accredited, degree-
           granting institution, and as an institute of higher education, USMMA possesses
           sensitive information, including current and former students’ grades and
           personally identifiable information (PII), such as social security numbers and
           passport numbers. The Academy uses a local area network (LAN) and Website for
           several purposes, including the acceptance of student applications and
           maintenance of student grade records, both of which include PII.

           We initiated this audit in response to weaknesses identified at USMMA during the
           fiscal year 2010 information security audit required by the Federal Information
           Security Management Act of 2002 (FISMA). Our objectives were to:
           (1) determine whether USMMA’s LAN and Website are secure from compromise;
           and (2) identify security weaknesses in the Academy’s LAN, Website and
           databases.

           To conduct our work, we performed an external penetration test1 to determine
           whether unauthorized access to USMMA’s Website and network was possible.
           We also visited USMMA to perform onsite vulnerability assessments that would

           1
               A penetration test is a method of computer security evaluation that involves the simulation of a malicious attack on
               information systems. The objective of the test is to determine whether external and/or internal parties can acquire
               unauthorized access to the systems.
                                                                                                                      2


identify control weaknesses. Finally, we used a statistical sample of USMMA’s
user systems to evaluate compliance with required configuration baselines. We
conducted this audit between February 2011 and March 2012 in accordance with
generally accepted Government auditing standards.

RESULTS IN BRIEF

USMMA’s security controls were not sufficient to protect its Website and LAN
from compromise, as USMMA had not implemented security controls required by
National Institute of Standards and Technology’s (NIST) guidance and DOT
policy. In March 2011, we successfully penetrated USMMA’s network security
through a misconfigured application on its Web server, and due to excessive
account privileges and poor access controls on the LAN, were able to gain full
access to the Academy’s LAN and sensitive information. Our test demonstrated
that all USMMA data, including PII, is at high risk of exposure to hackers. As a
result of our work, USMMA corrected the vulnerability in its Web server that
allowed our remote penetration during the audit,2 but did not correct the other
weaknesses we found on the LAN.

Additional information security weaknesses exist in USMMA’s LAN, Website
and databases because the Academy has not implemented information security
programs for protection of information and information systems, as required by
FISMA and DOT policies. For example, poor access controls over the Academy’s
databases make its PII vulnerable to unauthorized access. Other security
management weaknesses—including missing software update patches;3 ineffective
security management tools; excessive account privileges; unnecessary accounts;
insecure system configurations; ineffective contractor oversight; and the use of an
internet connection that did not comply with the Trusted Internet Connection
(TIC) requirement4—put its entire system at risk for compromise. USMMA’s
management attributed the identified security weaknesses to insufficient resources
and contractors’ lack of knowledge about Federal information security
requirements. As a result, the USMMA runs the risk that intruders will gain
unauthorized access to the large amount of sensitive information stored in its
system without detection or response from USSMA.

We are making recommendations to assist USMMA in the establishment of an
effective information security program.


2
    Immediately after we succeeded in the penetration of the network, we notified appropriate officials to address the
    exploited vulnerability.
3
    A patch is software designed to update or repair a problem, such as a security vulnerability, in a computer program.
4
    Office of Management and Budget’s (OMB) M-08-05, “Implementation of Trusted Internet Connections (TIC),”
    November 20, 2007, requires agencies to consolidate external network connections to improve security and better
    monitor threats across Federal networks.
                                                                                3




BACKGROUND

Because it is an institute of higher education that is also a Federal Executive
Branch entity, USMMA faces special challenges in compliance with its regulatory
information security requirements. It must follow all Federal and DOT
information security policies, per FISMA, as well as the laws and regulations that
govern academic records and performance. To meet its missions, USMMA must
collect sensitive personal information, including social security numbers, medical
histories, family information, and student academic histories from over 1050
current midshipmen,5 80 faculty, and support staff, as well as alumni. This large
amount of sensitive information results in a significant responsibility for USMMA
with regards to the information’s security.

The Academy relies on its information systems to handle applications, provide
class room services, maintain midshipmen’s records, and provide administrative
support. It uses a single network to both support its academic mission and handle
administrative tasks. The development, operation, and security of all of
USMMA’s information systems are provided under a single services contract. The
contractor provides all information technology (IT) services to the Academy under
the direction of its Chief Information Officer (CIO). The contractor also provides
IT support to the midshipmen on campus, including the issuance and maintenance
of student laptops. The midshipmen take these laptops with them when they serve
for required periods at sea, and the Academy must continue to provide IT support
during these periods.

OIG GAINED REMOTE ACCESS TO USMMA’S WEBSITE,
NETWORK, AND SENSITIVE DATA

We gained total access to USMMA’s systems during the March 2011 external
penetration test we conducted from DOT’s headquarters in Washington, DC. A
high-severity vulnerability in USMMA’s public Website left the Academy’s
network completely open to compromise and allowed us to gain access to the
Academy’s Website, network, and data. A high-severity vulnerability is a
weakness that can be used to remotely gain control of a system. Other system
weaknesses aided our intrusion, including USMMA’s posting of its password
policy on its public Website, weaknesses in the Academy’s system settings and
use of administrative accounts, and poor incident detection. Our test demonstrated
that all USMMA data, including PII, was at high risk of exposure to hackers.



5
    As of its Fall 2011 enrollment.
                                                                                                                    4


We requested that USMMA provide us with all data (e.g. computer logs) related to
our intrusion to determine whether hackers had successfully compromised the
system prior to our test. However, the system administrator had deleted the Web
server traffic history and was unable to fully recover the data. The partially
reconstituted files were not useful for analysis, so we were unable to make this
determination. The deletion of the history files was contrary to the Academy’s
System Security Plan for the LAN, which states that all logs are to be retained for
at least one year. As a result, it is unknown whether the flaw in the web server
software had been previously exploited and if so, what data had been accessed.

The weaknesses that we exploited were present in USMMA’s system because the
Academy has not followed NIST’s guidance6 and DOT’s policy7 for protecting
information systems. NIST’s Special Publication (SP) 800-44 Revision 2 provides
guidelines for securing public Web servers—security that would have prevented
exploitation of the vulnerability that allowed our access to the network. NIST and
DOT also require implementation of standard security controls—which the
Academy has not adopted—that include minimum acceptable requirements for
configuration management,8 account management,9 incident detection and
response, and audit log retention. Furthermore, USMMA does not actively
monitor the tools that detect possible intrusions such as the one we conducted, and
instead reviews the information that the tools provide only after an intrusion is
evident.

The Academy has corrected the high-severity vulnerability in its Website that we
used to compromise the Web server. However, it has not corrected the other
weaknesses we exploited to gain full network access. These weaknesses and those
we detected in our on-site vulnerability assessment are discussed below. As a
result of these ongoing problems, USMMA remains vulnerable to the loss of PII
and would not be prepared to detect or respond to another compromise of its
system.




6
    NIST SP 800-53, revision 3, Recommended Security Controls for Federal Information Systems and Organizations,
    August 2009
7
    DOT Departmental Cybersecurity Compendium, June 14, 2011
8
    A process that ensures that system owners use approved security control baselines for all software. The baselines
    prescribe the ideal software settings to attain the required degree of security.
9
    A process that creates, modifies and terminates network accounts, including user accounts. System owners use these
    accounts to grant and control user access.
                                                                                 5


ADDITIONAL SECURITY WEAKNESSES MAKE USMMA’s
NETWORK VULNERABLE

Our May 2011 on-site vulnerability assessment revealed many security control
weaknesses in USMMA’s system. Database security weaknesses make PII
vulnerable to unauthorized access. Furthermore, missing software updates,
ineffective security management tools, poor account management, weaknesses in
the Academy’s security configuration management, the use of an unapproved
internet connection, and inadequate management participation in security and
contractor oversight put the Academy’s entire system at risk for compromise.

Weaknesses in USMMA’s Database Security Make PII Vulnerable

USMMA’s database management systems had configuration and account
management vulnerabilities that jeopardize system security. For example, use of
midshipmen and other users’ PII in application development and testing combined
with weak passwords allowed access to PII, including social security numbers,
passport numbers, and password reset questions. Furthermore, all nine database
systems we discovered during our network inventory had high severity
vulnerabilities that can allow unauthorized access to them and to the server they
run on. For example, default settings, which provide access to sensitive data and
privileged administrator commands, are accessible to users who do not need
access to them to perform their work.

The Privacy Act10 requires appropriate administrative and technical safeguards to
ensure the security and confidentiality of records and to protect against any
anticipated threats or hazards to their security or integrity which could result in
substantial harm, embarrassment, inconvenience, or unfairness to any individual
on whom information is maintained. DOT’s Departmental Cybersecurity
Compendium requires each System Owner—the official responsible for the
development and operation of a system—to implement a process for privileged
account management, and institute least-privilege access. Least privilege means
that a user is assigned the minimum rights they need to perform their duties.
Because USMMA management gave software developers and database
administrators complete control of the Academy’s systems and did not conduct
security assessments, they were not aware that developers and administrators had
not applied the required security controls when they configured the databases.
Consequently, PII was easily available to anyone with access to USMMA’s
network. Furthermore, access to the password reset information allows a hacker to
reset another user’s password and log on to a system as that user. This
unauthorized login would allow the hacker to view the user’s email, connect to


10
     5 U.S.C. § 552(e)(10)
                                                                                                             6


other systems as the user, and access any sensitive data available to the user—all
without an audit trail that would lead back to the hacker.

The Academy Does Not Properly Update Its Software Applications’
Security Patches

USMMA did not ensure that applications installed on servers and user systems
were fully patched. USMMA’s system for automatic patch deployment was
mostly effective in patching operating system11 vulnerabilities, but did not
properly remediate installed applications. During our vulnerability assessment, we
found 250 missing patches for high-severity vulnerabilities across 23 servers and
support systems in the management portion of the network, the majority of which
were in third-party applications. Third-party applications, such as Adobe Reader
or Oracle Java, are programs not developed by Microsoft, the Academy’s
operating system vendor, and are often more difficult to patch since each vendor
implements its own update system. As operating systems have become more
secure, exploitation of such vulnerabilities in applications has become the primary
means for attacks against the systems. USMMA’s patch deployment system is not
configured to monitor and update all of its third party software.

DOT Order 1351.37, Cybersecurity Policy (June 14, 2011) requires each
component’s Information System Security Officer (ISSO) to ensure that
cybersecurity notices and advisories are distributed to appropriate personnel, and
that vendor-issued security patches are expeditiously installed. USMMA did not
have a standardized patch management policy or procedures, or a working
vulnerability assessment capability. Because it does not patch high-severity
vulnerabilities, USMMA’s systems remain at risk for compromise.

The Academy’s Security Management Tools Are Ineffective

USMMA has invested a large amount of funds to acquire automated tools to assist
its administrators with secure system management and to provide Academy
management the data necessary to determine the operating status and weaknesses
of information systems. However, the following three tools were not effective
because they were not configured to properly identify weaknesses:

        A vulnerability assessment tool used to identify missing patches and
         misconfigurations;
        A compliance monitoring tool used to verify that systems meet OMB and
         NIST12 mandated security levels; and
11
     A set of programs that manages computer hardware resources and provides common services to other programs.
12
     OMB M-07-11, Implementation of Commonly Accepted Security Configurations for Windows Operating Systems,
     March 22, 2007; NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems
     and Organizations, August 2009.
                                                                                   7


    A configuration management tool used to install software updates and
     enforce secure configuration settings.

USMMA did not properly configure its systems to allow remote management by
the vulnerability assessment and compliance monitoring tools, resulting in
incomplete information on the network’s security status. Furthermore, USMMA
set up the configuration management tool to apply patches to some but not all of
its systems and applications. These vulnerabilities existed because the Academy’s
IT contractors did not have sufficient knowledge to successfully configure the
tools, were not trained in the tools’ use, and did not perform routine reviews of the
tools’ reports. Consequently, the Academy’s ISSO was not aware that the tools
were not working properly, and did not notice that the reports indicated that the
vulnerability assessment and compliance monitoring tools could not access the
systems to perform their functions. Finally, because the vulnerability assessment
tool was providing incomplete results, the ISSO did not detect missing patches.

DOT Order 1351.37 requires security managers to validate their components’
information system security reporting, and ensure that security tools are used to
their fullest capacity. USMMA’s ISSO had not received sufficient training on the
use or implementation of those tools. The CIO stated that the tools were new at the
time of our visit and had not yet been fully implemented. Since USMMA’s did not
configure its security management tools to fully assess the network, management
did not have an accurate representation of the system’s risk, and vulnerabilities
remained unpatched.

The Academy’s Account Management Practices Are Ineffective

The practices that the USMMA’s system owners use to manage the Academy’s
user and system accounts do not ensure the accounts’ security. We reviewed a list
of 20 accounts and found 16 active service accounts—used to run various software
with domain administrator rights. These rights grant full control to a Windows
network and allow anyone that gains access to these programs to execute
privileged commands. Furthermore, the domain administrator account, which we
created during our external exploitation of USMMA’s Web server, was
deactivated, but had not been removed—a fact that shows that USMMA does not
actively manage its privileged accounts.

USMMA also did not properly manage the accounts on its student information
database. The database administrator provided us a list of 48 current users that
needed access to the student record system. We compared this list to a system-
generated report of the active accounts, and identified 261 active users. This
discrepancy also indicates that the Academy did not actively manage user
accounts to remove accounts that were no longer in use. Inactive accounts often
have weak passwords and do not alert users when they are locked out, making
                                                                                                                     8


them ideal targets for password guessing that leads to unauthorized access to
systems. We also reviewed users who had access to social security numbers stored
in the database. The Academy’s CIO identified two users who should not have had
access rights to social security numbers, but informed us that the rights had not
been removed due to the users’ resistance. USMMA also did not perform account
reviews to determine whether all accounts had appropriate access rights based on
users’ duties.

NIST SP 800-53 requires that agencies use automated methods for account
management and systems to audit account creation, modification, disabling, and
termination. Furthermore, SP 800-53 requires that system account users have only
the minimum access privileges they need to perform their duties. Weaknesses in
the Academy’s student record system account management allow inappropriate
and excessive access to sensitive student data.

Many tools are available to assist with ongoing account management and review,
but USMMA had not implemented an automated method. The Academy's CIO
stated the Academy did not have the resources to review them manually or acquire
a tool to do so. Consequently, accounts were removed and disabled only
intermittently, and a large number of unnecessary accounts remained on the
system.

The Academy’s Security Settings Do Not Meet Baselines

USMMA has not implemented secure baselines for its systems. Baselines are
known secure configuration settings that NIST, industry organizations, and system
vendors publish, and are required by DOT Order 1351.37 and NIST SP 800-53
Rev. 3.13 The Academy’s network and database administrators informed us that
they do not apply known secure baseline configuration settings for the systems—
information that we confirmed with the results of our vulnerability scans. We
randomly tested 8,547 out of 125,895 baseline controls14 and found 3,315 controls
required by the Government's common baselines were not present. Based on this,
we estimate that 48, 829 controls or 38.8 percent of the 125,895 required controls
were not present.15 Even if baselines had been applied, midshipmen and some
Academy personnel had administrative rights to the system, meaning they could
modify settings on their laptops and install software. We found known viruses and
other unapproved programs running on both midshipmen and staff’s systems.
USMMA’s CIO informed us that midshipmen are allowed to install software on
their laptops when they are not connected to the network because they own the

13
   The Office of Management and Budget requires departments to apply the Federal Desktop Core Configuration on
   Windows XP systems and the US Government Configuration Baseline on Windows 7 systems.
14
   Our original universe was 231,231 controls, but at the time of our testing, only 125,895 controls were available due
   to the fact that some computers were not active at the time of the test.
15
   Our estimate has a margin of error of +/- 0.1 percentage points at the 90 percent level of confidence.
                                                                                  9


laptops and spend a considerable amount of time away from campus. However,
DOT’s policy prohibits connection of personally owned equipment to the
Department’s information systems. The lack of secure configuration baselines
prevents assurance that systems operate in a known secure state.

Furthermore, USMMA does not maintain an accurate inventory of its network
devices, which is necessary to know what security settings are needed to secure a
system. DOT Order 1351.37 requires System Owners to develop, document, and
maintain inventories of information system components that accurately reflect the
content of their systems. The Academy also did not have a single inventory
document. It provided various documents that contained inventory information,
but not a complete and accurate inventory of the entire network. For example, a
system inventory produced by Active Directory—a Microsoft technology for
managing computers, users, and other resources in a Windows-based network—
contained hundreds of systems no longer present on the network. The lack of an
accurate inventory of network devices means that the Academy cannot be sure that
secure configurations are applied to all its devices.

USMMA Did Not Use a Trusted Internet Connection

USMMA was not using a Department-approved TIC to access the Internet. The
Academy currently gains internet access through a local provider rather than
through one of the three DOT-approved TICs. Approved TIC providers have been
certified as providers of the required level of security and monitoring in
compliance with OMB’s requirements. DOT’s Cybersecurity Compendium
requires that components convert to use of approved TICs by February 29, 2012 in
order to comply with an OMB and Department of Homeland Security mandate to
limit and monitor internet connections to Government systems. USMMA informed
us that it had not yet been able to procure an approved TIC with sufficient
bandwidth to replace its current connection. Because the Academy does not use a
TIC, it will be unable to meet the program goals of securing federal agencies’
external network connections, including Internet connections, and improving the
government’s incident response capability.

Management Roles and Participation in Security Were Inadequately
Defined

USMMA’s System Security Plan (SSP) for the LAN was incomplete. An SSP
outlines roles and responsibilities for a system’s protection and contains a listing
of the system’s security controls. The SSP for the Academy’s LAN, prepared by
an independent vendor who assessed the system in December 2009, did not
identify the System Owner or Information System Security Manager—the official
responsible for ensuring a system is operating securely. It also did not assign
specific responsibilities for information security to the Academy’s authorizing
                                                                                                                       10


official—the senior manager that accepts responsibility for the information
system’s operation—or ISSO. Furthermore, the SSP did not correctly identify the
Academy’s authorizing official or ISSO.

The ISSO, who is a contractor, had primary responsibility for information security
operations, but did not ensure that security functioned as intended. The ISSO
submitted incomplete or inaccurate reports on system vulnerabilities, did not
deploy system baselines, did not ensure that proper backup procedures existed,
and did not perform incident detection. The ISSO also had not received sufficient
training on the security tools to use them effectively. Furthermore, management
did not perform sufficient oversight of the contractor to ensure that controls
operated effectively, that security tools were implemented correctly, that
contractor system access privileges were managed, and that contractors with
security responsibilities received specialized training.

Finally, management did not enforce the network use policy for its midshipmen.
The policy met requirements, but had not been officially released or implemented.
The midshipmen were not required to acknowledge the policy and were not held
accountable for policy violations. For instance, the CIO provided the
Commandant’s office, responsible for student discipline, with names of
midshipmen who accessed adult Websites16 over the network, but no disciplinary
actions were taken.

DOT’s Order 1351.37 requires all components to specify functions for System
Owners, Information System Security Managers, ISSOs, and authorizing officials
for properly implementing their security programs. Furthermore, the Federal
Acquisition Regulations require that services contracts for operations and security
include specific goals and metrics for acceptable contractor performance, and that
agencies oversee contractors’ performance. NIST requires that agencies develop
and enforce rules of behavior that dictate what users can and cannot do on a
network. USMMA’s contract lacked goals and metrics, and USMMA’s statement
of work did not include sufficient detail for the scope of the services being
procured. Consequently, management was unable to hold the contractor to specific
performance metrics. Furthermore, USMMA’s CIO stated that because the
contractors were not familiar with FISMA’s information security requirements,
they did not comply with the requirements. Consequently, critical security
weaknesses across the network were not identified for remediation, activities that
threaten information security were not monitored, and USMMA’s systems and
data were at high risk for compromise.



16
     Websites that contain sexually explicit audio, text or images (of partial or full nudity) that in general could not be
     considered poetic or artistic.
                                                                              11


CONCLUSION

PII is a valuable commodity for hackers. The theft of PII can be costly and
detrimental to victims and the organizations entrusted with it. USMMA has
invested in expensive security tools. However, because the Academy lacks robust
policies and technical expertise to make them effective and protect its systems,
serious security vulnerabilities exist throughout the Academy’s network. These
vulnerabilities are exacerbated by the Academy’s ineffective security oversight.
Consequently, USMMA’s systems remain exposed to unauthorized access which
can contribute to the loss of staff and midshipmen’s PII and the theft of their
identities, as well as compromise the integrity and availability of the LAN,
Websites and databases.

RECOMMENDATIONS

We recommend that the MARAD Administrator:

   1. Establish policies and procedures for account management, configuration
      management, incident response continuous monitoring, and security
      training including appropriate metrics for measuring effectiveness.

   2. Select and implement approved baseline configurations for all USMMA
      operating systems, applications, and web servers, document baseline
      deviations for risk acceptance, and submit to DOT OCIO for review and
      approval.

   3. Review accounts for all USMMA systems and applications to determine if
      they are necessary, have appropriate access rights, and meet DOT access
      control requirements. Remove, disable, or modify all accounts not currently
      in compliance with DOT requirements.

   4. Ensure all service accounts have the least privilege necessary to perform
      their functions.

   5. Fully implement continuous monitoring tools, review and validate results,
      and apply patches or take corrective actions to mitigate vulnerabilities.

   6. Enforce acceptable use policies for all users including appropriate
      corrective actions for non-compliance.

   7. Migrate external Internet connection to a DOT approved TIC.
                                                                              12


   8. Specify security responsibilities for System Owners, Information System
      Security Managers, ISSOs, and authorizing officials.

   9. Ensure management provides contract oversight in accordance with DOT
      policies and procedures.


AGENCY COMMENTS AND OIG RESPONSE
We provided MARAD’s Administrator with a draft of this report on March 27,
2012, and received its written response on May 1, 2012, which is included in its
entirety as an appendix to this report. In its response, MARAD concurred with all
of our recommendations and detailed planned and completed actions to address
these recommendations.

ACTIONS REQUIRED
We consider MARAD’s planned and reported actions and target dates responsive
to all our recommendations and consider them resolved but open pending
completion and documentation of activities. We appreciate the courtesies and
cooperation of MARAD’s representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1407.


cc: Marilyn Hetsel, Interim Director of Information Technology, USMMA
    Bonnie McLendon, MAR-392
    Martin Gertel, M-1
                                                                               13


EXHIBIT A. Scope and Methodology

We performed our network security assessment between February 2011 and
March 2012, and conducted our work at MARAD’s Headquarters in Washington,
D.C. as well as USMMA’s facility in King’s Point, New York. We conducted our
audit in accordance with generally accepted Government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To address our audit objectives, we used the guidance provided in NIST SP 800-
115 Technical Guide to Information Security Testing and Assessment (September
2008) to perform a penetration test and vulnerability assessment of USMMA’s
LAN and Website using widely available tools and techniques. We interviewed
USMMA’s CIO, information technology contractors, and senior leadership to
determine what information and resources were critical to USMMA’s operation
and how protections were implemented. We reviewed and analyzed documents,
policies, and procedures related to USMMA’s network infrastructure and Website.

Finally, we used a statistical sample of 68 of 1,001 computers from USMMA’s
system inventory to evaluate compliance with required configuration baselines.
For the 37 of the 68 that were available at the time of testing, we used a NIST
validated configuration assessment tool to compare each computer's operating
system settings to the appropriate baseline configuration. We tested 231 controls
on each of the 37 computers for a total of 8,547 controls. This statistical sample
allowed us to project missing controls with a 90 percent confidence level and a
margin of error of 0.1 percentage points for the computers that were available.




Exhibit A. Scope and Methodology
                                                             14


EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
Name                               Title

Louis C. King                      Former Program Director

Gerald Steere                      Project Manager

Felicia Moore                      Information Technology
                                   Specialist

Susan Neill                        Writer-Editor
Megha Joshipura                    Statistician




Exhibit B. Major Contributors to this Report
                            15


APPENDIX. AGENCY COMMENTS




Appendix. Agency Comments
                            16




Appendix. Agency Comments
                            17




Appendix. Agency Comments
                            18




Appendix. Agency Comments
                            19




Appendix. Agency Comments
